OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/GHANA’S
PARTNERSHIP FOR
ACCOUNTABLE GOVERNANCE
IN EDUCATION PROJECT
AUDIT REPORT NO. 7-641-13-004-P
July 22, 2013




DAKAR, SENEGAL 

Office of Inspector General


July 22, 2013

MEMORANDUM

TO:     	        USAID/Ghana Mission Director, Cheryl Anderson

FROM: 	          Regional Inspector General/Dakar, Abdoulaye Gueye /S/

SUBJECT:	        Audit of USAID/Ghana’s Partnership for Accountable Governance in Education
                 Project (Report No. 7-641-13-004-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (without
attachments) in Appendix II.

The report contains eight recommendations to help USAID strengthen its education project in
Ghana. Based on management’s comments on the draft report, we acknowledge that
management decisions have been reached on all recommendations.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action on all
eight recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




  U.S. Agency for International Development
  American Embassy Dakar
  Route des Almadies
  Dakar, Senegal
  http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     CARE Rushed Some Activities to Make Up for Late Start ...................................................... 4 


     Some Data Were Not Accurate, Reliable, or Supported Adequately ..................................... 5 


     Supervision and Monitoring Techniques Were Not Implemented ........................................... 6 


     Partner Incorrectly Attributed and Computed Cost-Share Contributions ................................ 7 


     Performance Management Plan Was Not Complete .............................................................. 8 


Evaluation of Management Comments................................................................................... 11 


Appendix I—Scope and Methodology .................................................................................... 13 


Appendix II—Management Comments ................................................................................... 15 

SUMMARY OF RESULTS 

According to a report issued by USAID/Ghana in November 2012, roughly half of all Ghanaian
students fail their basic education1 completion exam, and the quality of education in the West
African nation is poor.

To help the Ghanaian Government improve the educational system, USAID signed a 3-year,
$8.25 million agreement with Cooperative for Assistance and Relief Everywhere (CARE) in
June 2010 to implement the Partnership for Accountable Governance in Education project. Its
objective was to help more students succeed through strengthened school governance and
supervision activities in targeted districts by working with various stakeholders2 through the
Ghana Education Service. The project was implemented in 46 of Ghana’s 216 districts and
supports several activities under four components:

	 Stakeholder outreach.

	 Collaboration and development of district-specific frameworks for education governance and
   supervision.

	 Improvement of school supervision through training circuit supervisors and head teachers.3

	 Building capacity of school management committees (SMCs) and parent-teacher
    associations (PTAs).

According to CARE, the project was designed on the hypothesis that if education leadership and
management improve through accountable, transparent governance systems, and school
supervision is strengthened, then the performance of students at the basic level will improve.
This required working closely with the Ghana Education Service to build the capacity of district
officials, especially circuit supervisors and head teachers, and other employees so they could
work more effectively and efficiently.

The audit’s objective was to determine whether USAID/Ghana’s education program is on track
to improve student achievement in basic schools through strengthened educational governance
and supervision. The audit determined that it was not. The delayed signing of a memorandum of
understanding between CARE and its subpartner, the Ghana Education Service, set activities
back by more than a year, and that affected the program’s first- and second-year results
(page 4). For example, CARE did not train any of the 3,680 head teachers as scheduled in fiscal
year (FY) 2011, and it started implementing activities without a proper work plan or input from
the districts where these activities were taking place.


1
  Basic education covers 11 years of school at no cost.
2
   The stakeholders are district assembly and education officials, head teachers, civil society
organizations, school management committees, and parent-teacher associations.
3
  Circuit supervisors are assigned by district education offices to monitor and supervise schools to
improve students’ work. They assign head teachers and teachers. Head teachers are school
administrators or principals. They manage the teaching and learning activities in their school, and their
roles and responsibilities include staff development.



                                                                                                       1
The audit found the following additional problems.

	 Data was not always accurate, reliable, or adequately supported (page 5). Some of results
   for fiscal years 2011 and 2012 changed several times during the audit, indicating that data
   were not reliable.

	 Head teachers at the schools visited were not using all the supervision and monitoring
   techniques that they learned in training provided by the program (page 6). Neither CARE nor
   the mission made sure the head teachers were able to apply the skills they had acquired.

	 CARE incorrectly attributed and computed its cost-share contributions (page 7). As a result,
   CARE did not give the correct amount of funds and in-kind contributions to the program.

	 The program’s performance management plan (PMP) lacked performance indicators that
   measured outcomes (page 8). It also did not have reference sheets that defined indicators
   clearly. This affected CARE’s understanding and reporting of the program’s results.

To address the weaknesses noted, the report recommends that USAID/Ghana:

1. 	Require Cooperative for Assistance and Relief Everywhere to revise the implementation
    work plan for the districts where the program is being implemented and verify that activities
    are carried out in a logical, timely manner (page 5).

2. 	 Require Cooperative for Assistance and Relief Everywhere to implement a process to make
     sure that feedback it receives from district offices is documented, acted upon, and resolved
     in a timely manner (page 5).

3. 	Implement policies and procedures to include data verification as part of performance
    monitoring site visits (page 6).

4. 	 Require Cooperative for Assistance and Relief Everywhere to implement a plan to confirm
     that appropriate supervision and monitoring techniques are used in schools where head
     teachers received supervision and monitoring training, and document the results (page 7).

5. 	 Determine the allowability of $384,085 in questioned cost-sharing contributions and recover
     from Cooperative for Assistance and Relief Everywhere any amounts determined to be
     unallowable (page 8).

6. 	 Review Cooperative for Assistance and Relief Everywhere’s other cost-share contributions,
     disallow any contributions deemed inappropriate, and implement a plan that requires the
     partner to pay its share by the end of the project (page 8).

7. 	 Revise its performance management plan for the Partnership for Accountable Governance
     in Education project to include performance indicators that measure intended project
     outcomes (page 9).

8. 	 Review the performance monitoring plan for the Partnership for Accountable Governance in
     Education project, and confirm that all indicators are defined clearly and have reference
     sheets (page 10).




                                                                                               2
Detailed results appear in the following section, and the scope and methodology appear in
Appendix I. Management comments appear in their entirety in Appendix II, and our evaluation of
management comments is included on page 11 of the report.




                                                                                            3
AUDIT FINDINGS 

CARE Rushed Some Activities to
Make Up For Late Start
Project activities were scheduled to start in June 2010 when USAID/Ghana and CARE signed a
cooperative agreement. According to the work plan, CARE was to work with the Ghana
Education Service and Ministry of Education that month to help implement project activities.
Officials from the program and the education service were supposed to sign a memorandum of
understanding and launch the program in July 2010.

However, many problems affected implementation and results, as described below.

Program Started Late. Under its subagreement with the education service, CARE was to rely
on host-country systems and resources to implement project activities. Therefore, the education
service was to carry out the activities, which included town hall meetings in selected
communities, school performance appraisal meetings, capacity-building activities, and radio
programs. In addition, CARE was to use government systems to pay for activities in the districts
by providing the education service with funds; these funds would then be transferred to the
46 districts using the service’s existing systems for activity implementation.

According to CARE officials, however, officials at the education service had other priorities that
prevented them from dedicating the time and resources needed to review the terms of the
subagreement and sign it until June 7, 2011, 12 months after the program started. During that
time, mission officials said, CARE made good efforts by laying the foundational and preparatory
work for PTA and education administrators’ training.

The education service director and his chief accountant said the delays occurred because
district accountants needed to be trained on how to keep proper records for the project and how
to account for disbursement of funds for project activities. In addition, education service officials
said they had to be sure the rural bank they were working with had the capability to receive and
disburse project funds as needed, and this took a lot of time.

The program’s former agreement officer’s representative (AOR) said the mission made many
attempts to get the subagreement signed, including hosting weekly meetings with the education
service and CARE officials to provide them with needed support to ensure timely
implementation. Mission officials attributed the delays to disagreements over the tools the
education service would use to transfer funds to the districts.

As a result, 28 of the 39 activities slated for implementation in the first year were delayed; others
were not fully implemented or not implemented at all. The program could not train any of the
3,680 head teachers it planned to train in FY 2011 and was able to support only 870 out of
3,680 PTAs or similar entities that it was supposed to help. It was able to train 1,434 out of a
target of 5,080 administrators and officials.

The project had similar problems in FY 2012.




                                                                                                   4
Activities Were Rushed. After the subagreement was signed late, CARE tried to make up for
lost time. Districts were asked to implement too many activities at once with little time to
adequately plan for them. In addition, people in some districts we visited said CARE did not
respond to their requests to replace community outreach programs with radio programs so they
could reach a wider audience on topics of general concern to the population

The problems occurred primarily because CARE did not work with districts to make sure the
activities still met their needs and that they had enough time to plan and implement them.
Additionally, the AOR for the program did not make sure that CARE had revised its work plans
once the subagreement with the Ghana Education Service was finally signed.

Because of these problems, the activities in some communities had little impact. To resolve
these problems, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Ghana require Cooperative for
   Assistance and Relief Everywhere to revise the implementation work plan for the
   districts where project implementation is taking place and confirm that activities are
   implemented in a logical, timely manner.

   Recommendation 2. We recommend that USAID/Ghana require Cooperative for
   Assistance and Relief Everywhere to implement a process to confirm that feedback from
   district offices provided to its officials is documented, acted upon, and resolved in a
   timely manner.

Some Data Were Not Accurate,
Reliable, or Supported Adequately
According to Automated Directives System (ADS) 203.3.11.1, high quality data are crucial for
making decisions. To be useful for monitoring and credible for reporting, data must be valid,
accurate, precise, reliable, and timely. ADS 203.3.2 further states that performance monitoring
links and informs all aspects of the program cycle, from the country development cooperation
strategy to program design and implementation and evaluation. Program managers and
development objective teams analyze performance by comparing actual results achieved with
targets set at the beginning of a program or activity. This helps them track progress.

The audit judgmentally tested the results for 23 of the 37 activities implemented in FY 2012 in
the five districts visited. We found that data from 9 were not accurate, reliable, or supported
adequately.

	 Although CARE reported to have trained 73 head teachers in Ga East in its 3-day course in
   FY 2012, the data it provided showed that only 26 attended 2 days of training, and no
   attendance sheet was available for the third day.

	 Although CARE reported to have conducted 2 days of SMC/PTA trainings in Ga East with
   250 participants, the implementer did not maintain any documentation of them.

	 For the SMC/PTA training held in Mfansteman, we were able to validate only 120 of
   128 participants reported.




                                                                                             5
	 For the SMC/PTA training held in Savelugu Nanton District, CARE reported to have trained
   597 participants; however, our testing of the supporting documents identified
   784 participants.

	 For the 2-day SMC/PTA training held in July 2012 in Ga South, the same participants were
   supposed to attend both days. CARE’s records showed 165 participants. However, we were
   able to verify only 72 participants for the first day and 137 for the second day.

	 For the SMC/PTA training held in October 2011 in Ga South, the number of participants
   according to CARE’s records was 178. However, we were able to verify only 80 participants
   for the first day and 20 for the second day.

	 According to CARE’s records, 216 people came to the town hall meeting in Mfansteman;
   however, we were able to verify only 206.

	 CARE reported that 232 people participated in a community activity in Savelugu Nanton.
   However, district officials said the activity was not yet carried out.

	 For the head teachers training held in Mfansteman, CARE said 127 people attended, yet we
   found that 135 attended.

In general, officials did not maintain adequate records in the district offices we visited. Records
were not readily available, and it took a lot of effort to validate the data in them. At several
districts, we found that training attendance sheets were not always dated and did not always
include the title of the training held.

This situation occurred because the mission and CARE did not provide adequate monitoring to
confirm the integrity of reported data. In fact, when we asked the district officials whether
anyone from the mission or CARE had visited them or performed similar data verification by
tracing the numbers reported to the source documents, they all said no. On several occasions,
CARE could not replicate historical data. Our requests for CARE to generate the same data at
different periods during the audit yielded different results each time, which indicated that CARE
did not have a reliable monitoring and evaluation system.

Without reliable data, it is difficult to assess the progress of the program accurately and
determine whether it is meeting its intended targets. Therefore, we make the following
recommendation.

   Recommendation 3. We recommend that USAID/Ghana implement policies and
   procedures to include data verification as part of performance monitoring site visits.

Supervision and Monitoring
Techniques Were Not Implemented
A component of the project sought to improve school monitoring and supervision by providing
circuit supervisors and head teachers with capacity-building training to help them monitor
schools better and also to provide effective supervision and support related to school quality
and student achievement. After the training, the head teachers were expected to apply what
they learned at their respective schools with supervision from circuit supervisors.



                                                                                                 6
Although head teachers and circuit supervisors whom we met during this audit had attended
training put on by CARE and found it useful, the monitoring and supervision techniques they
learned in those trainings were either only partially implemented at their respective schools or
not at all. Moreover, during our visits to some school, we did not see any evidence that CARE or
mission officials had made sure the techniques were used after the training.

The head teachers explained that for implementation of school monitoring and supervision
methods to be effective, the teachers they supervise would need to be trained as well. However,
this was not done because, according to the mission, it would have been cost-prohibitive to do
so and it was not part of the project design. Additionally, the districts’ limited budgets did not
cover such expenses.

The head teacher at the Lower Town Municipal School in Mfansteman said she implemented
some aspects of the techniques. But to do so fully would take at least 2 full days of training, and
that would mean reimbursing teachers for transportation and meals for those days. She said
she explained this to the staff in the municipal education office that was in direct communication
with CARE, but did not receive a response. The principal of a school in the Northern Region had
similar problems and had not implemented any of the techniques due to lack of funds even
though she found the tools and skills useful.

These problems occurred because mission and CARE officials did not make sure that the head
teachers and supervisors were using what they learned in Agency-funded training. District
officials said they told the project official responsible for the district of the challenges they were
facing but never got a response on how to resolve them. Additionally, CARE officials said they
did not budget for monitoring at the schools because they expected the education service would
handle that—even though they did not provide the service with direction or funding to do so.

As a result, an estimated $82,705 has been spent training 2,035 head teachers, but the effect
has been limited. To address this situation, we make the following recommendation.

   Recommendation 4. We recommend that USAID/Ghana require Cooperative for
   Assistance and Relief Everywhere implement a plan to confirm that head teachers are
   using the appropriate supervision and monitoring techniques learned in training, and
   document the results.

Partner Incorrectly Attributed and
Computed Cost-Share Contributions
Per ADS 303.3.10, a cost share is the amount of resources an agreement recipient is expected
to contribute to the program’s total cost. ADS also states that recipients may satisfy cost-share
requirements through in-kind contributions such as donated supplies, equipment, and other
property. A recipient’s cost-share contributions must be verifiable through its records. If a
recipient does not meet its requirement, the mission’s agreement officer has several options to
address the situation: he or she can (1) apply the difference in actual cost share amount from
the agreed-upon amount to reduce the amount of USAID funding for the following funding
period, (2) ask the recipient to refund the difference to USAID when the award expires or is
terminated, or (3) reduce the amount of cost share.

The mission and CARE entered into a cooperative agreement on June 3, 2010, with total
funding of $8.25 million. According to the agreement, CARE’s cost-share was at least


                                                                                                    7
$833,333 or 10 percent of total activity costs for the 3-year project. However, the auditors noted
that the criteria CARE used to compute part of its cost share to the project were inaccurate,
overstated, and lacked supporting documentation. For example, CARE included time spent by
Ghanaian Government employees at project activities sponsored by the mission as part of its
cost-share contribution. However, CARE did not incur any of the $384,085 costs associated with
training those employees.

Mission officials expressed concern about how CARE was accounting for its cost-share
contributions and noted that a review of them would be appropriate to verify compliance with
USAID guidance. According to CARE, its contributions as of February 15, 2013, were $774,752.

The agreement officer said that though the mission revised the amount of cash CARE was
expected to contribute to include in-kind contributions also, CARE had to comply with U.S.
Government guidelines. These include Title 22 of the U.S. Code of Federal Regulations 226.23,
which states that cost-sharing contributions must be verifiable from the recipient’s records and
allowable under the applicable cost principles.

This problem occurred because CARE misinterpreted USAID’s cost-sharing guidance and was
not willing to work with mission officials to resolve it, nor did CARE maintain documentation to
support its contributions. Although the project’s AOR expressed her concerns about how CARE
was attributing and calculating the contributions, CARE officials insisted the calculations were
accurate and made no attempt to revise them.

A partner’s cost-sharing contributions are key to the U.S. Government’s international
development efforts, and the Ghanaian people cannot fully benefit if CARE does not contribute
its share. Therefore, to address this situation, we make the following recommendations.

   Recommendation 5. We recommend that USAID/Ghana determine the allowability of
   $384,085 in questioned cost-sharing contributions and recover from Cooperative for
   Assistance and Relief Everywhere any amounts determined to be unallowable.

   Recommendation 6. We recommend that USAID/Ghana review Cooperative for
   Assistance and Relief Everywhere’s other cost-share contributions, disallow any
   contributions deemed inappropriate, and implement a plan that requires the partner to
   contribute its share by the project’s end date.

Performance Management Plan Was
Not Complete
According to ADS 203.3.2:

       Performance monitoring is the ongoing and routine collection of performance
       indicator data to reveal whether desired results are being achieved and whether
       the implementation is on track . . . Data for performance indicators are collected
       periodically and analyzed in order to inform judgments about the characteristics
       and outcomes of programs and projects as a basis to improve effectiveness,
       and/or inform decisions about current and future programming. . . . Performance
       indicators are the basis for observing progress and measuring actual results
       compared to expected results. Performance indicators help answer the extent to
       which USAID is progressing towards its objective(s).



                                                                                                8
However, the audit identified the following deficiencies with the mission’s PMP for the project.

Lack of Performance Indicators. Despite the Agency’s focus on managing for results, the
mission’s PMP did not contain performance indicators that measured progress. For example,
the outcome indicators Percentage of P1-3 (grades 1 to 3) pupils who demonstrate progress
toward achieving Ghanaian language literacy and Percentage of P1-3 (grades 1 to 3) pupils
who demonstrate progress toward achieving English language literacy were measured only at
the beginning and end. USAID officials said CARE did not measure them annually because the
measurement is complex and costly, and the results would not reflect meaningful change or
impact on an annual basis.

However, the objective of the project audited was “Improved student achievement in basic
schools through strengthened educational governance and supervision.” Therefore, without
performance indicators that measured student performance in a timelier manner, the mission
did not have the necessary information to evaluate the effectiveness of the project and adjust it
as needed. Therefore, we make the following recommendation.

       Recommendation 7. We recommend that USAID/Ghana revise its performance
       management plan for the Partnership for Accountable Governance in Education project
       to include performance indicators that measure intended project outcomes annually.

Lack of Indicator Reference Sheets With Clearly Defined Indicators. USAID’s Performance
Monitoring and Evaluation Tips Number 12: Guidelines for Indicator and Data Quality,
1998 edition, says:

       An indicator is objective if it is unambiguous about (1) what is being measured
       and (2) what data are being collected. Objective indicators have clear operational
       definitions that are independent of the person conducting the measurement . . .
       Performance indicators should be framed and defined in clear terms so as not to
       be open to broad and varied interpretation by sector specialists.

According to ADS 203.3.4.3, as part of the PMP, “Precise indicator definitions, data sources,
and data collection methodologies should be captured in the Performance Indicator Reference
Sheet.” An indicator reference sheet includes a “precise definition” of each indicator to avoid
misinterpretation. It also includes data source and collection methodology for each indicator.

However, the audit found that CARE had misinterpreted and inaccurately reported results for
Number of administrators and officials trained and Number of Teachers/Educators trained with
USG assistance for FY 2012.

For the first indicator, CARE initially reported that it trained 436 administrators and officials.
However, during the audit CARE officials said they misinterpreted “administrators” and wanted
to revise their results from 436 to 3,533. This represents a 710 percent increase. Similarly, for
the second indicator the partner revised FY 2012 results from 1,461 to 2,035, representing a
39 percent change in results.

According to CARE, it was only after project officials attended a meeting with the mission in
August 2012 that they realized they had misinterpreted these two key indicators. However, it still
miscalculated results for FY 2012 and did not submit revised ones until November 2012.



                                                                                                   9
The audit found that this problem occurred because the PMP that the mission approved did not
include a complete list of indicators and reference sheets for many key indicators that the
project reported to the mission, which in turn included in its annual reports to
USAID/Washington. In fact, only five of the nine standard indicators were included in the PMP.
Because the indicator reference sheets—which clearly defined the project’s indicators—were
not included in the PMP, CARE misinterpreted the meaning of some of its indicators.

Without a complete PMP that includes clear indicator definitions, the mission may be relying on
data from CARE that are not accurate or reliable, and it cannot effectively assess the progress
of this program. Therefore, we are making the following recommendation.

   Recommendation 8. We recommend that USAID/Ghana review the performance
   management plan for the Partnership for Accountable Governance in Education project
   to make sure all indicators are defined clearly and have reference sheets, and document
   the results.




                                                                                             10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Ghana believes that the audit report provides a fair
representation of the status of the project, and management decisions have been reached on all
recommendations.

We have addressed the mission’s comments in the final audit report as deemed appropriate to
reflect the foundational and preparatory work that CARE performed during the delayed start-up,
the scope of data tested, and the fact that teacher training was not part of the project design.

The mission gave us the attendance sheets for four of the nine items listed under the finding
“Some Data Were Not Accurate, Reliable, or Supported Adequately.” Although the attendance
sheets for two of the four items were fully supported, we did not remove them from the finding in
the final report because the supporting documents should have been available during the audit.

A detailed evaluation of management comments follows.

Recommendation 1. USAID/Ghana’s implementer, CARE, is already reviewing the
implementation work plans in conjunction with district officials, Ghana Education Services, and
district assembly representatives for districts where the project is taking place to confirm that
activities planned have reasonable time frames. In addition, CARE is going to establish a
schedule to compare progress with the scheduled plans. The target date for the review is
September 30, 2013. As a result, we acknowledge that a management decision has been
reached on Recommendation 1.

Recommendation 2. USAID/Ghana will work with CARE to review its current project
implementation management tool, which is used to manage feedback from the district offices.
The mission also will work with CARE and the education service to find additional ways to
obtain and manage feedback. The target date for this action is September 30, 2013. As a result,
we acknowledge that a management decision has been reached on Recommendation 2.

Recommendation 3. USAID/Ghana has plans in place to include stronger components of data
quality review in monitoring visits. It will also work with CARE to establish policies and
procedures to include data verification as part of performance monitoring site visits. The target
date for this action is October 30, 2013. Therefore, we acknowledge that a management
decision has been reached on Recommendation 3.

Recommendation 4. USAID/Ghana will work with CARE to boost current monitoring and
oversight processes for CARE and the Ghana Education Service to build capacity and address
accountability problems throughout the project. CARE also will review its current implementation
plan of its monitoring and supervision tools to find how the plan could be enhanced to make
sure supervisors are using the tools they’re getting in training. The target date for this action is
September 30, 2013. Therefore, we acknowledge that a management decision has been
reached on Recommendation 4.

Recommendation 5. USAID/Ghana will work with CARE to recover $384,085 in cost-sharing



                                                                                                 11
contributions. The target date for this action is October 31, 2013. Therefore, we acknowledge
that a management decision has been reached on Recommendation 5.

Recommendation 6. USAID/Ghana will review CARE’s other cost-share contributions and
disallow any deemed inappropriate. It will implement a plan that requires CARE to make all of its
contributions by the project end date. The target date for this action is September 30, 2013.
Therefore, we acknowledge that a management decision has been reached on
Recommendation 6.

Recommendation 7. USAID/Ghana agrees with this recommendation and will revise its PMP to
include performance indicators that measure intended project outcomes. The target date for this
action is October 31, 2013. Therefore, we acknowledge that a management decision has been
reached on Recommendation 7.

Recommendation 8. USAID/Ghana has already begun a process of reviewing and
consolidating mission-wide performance indicator reference sheets under its new country
development cooperation strategy PMP, which will be used as a guide in working with CARE.
USAID/Ghana will review the plan for the project and make sure all indicators are defined
clearly and have reference sheets. The target date for this action is November 30, 2013.
Therefore, we acknowledge that a management decision has been reached on
Recommendation 8.




                                                                                              12
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Ghana’s Partnership for
Accountable Governance in Education project was on track to improve student achievements in
basic schools through strengthened educational governance and supervision.

The audit focused on implementation activities in fiscal years 2011 and 2012. To implement the
project, USAID/Ghana entered into a cooperative agreement with CARE for a 3-year period with
an effective date of June 3, 2010, through June 2, 2013, for $8.25 million, of which CARE
agreed to provide cash and in-kind contributions of $833,333. As of December 2012,
USAID/Ghana had obligated $7.4 million and disbursed $4.9 million for this project. The audit
tested $4.2 million of the disbursements.

In planning and performing the audit, the audit team assessed the significant controls the
mission used to manage its program and confirm that CARE was providing adequate oversight
of project activities. The assessment included controls related to whether USAID had
(1) reviewed progress and financial reports that CARE submitted, (2) conducted and
documented periodic meetings with CARE and Ghanaian Government officials, and
(3) performed documented visits to the activity sites. Additionally, the auditors examined the
mission’s fiscal years 2011 and 2012 annual self-assessments of management controls, which
the mission is required to perform to comply with the Federal Managers’ Financial Integrity Act
of 1982, to determine whether the assessment cited any relevant weaknesses.

We conducted audit fieldwork from January 28 to February 15, 2013. We interviewed key staff
members of the mission, CARE, Ministry of Education, and district offices. We conducted the
audit at USAID/Ghana and CARE offices in Accra, and at district and municipal offices in
Greater Accra, and Central and Northern Regions.

Methodology
To answer the audit objective, we interviewed the USAID/Ghana’s officials, CARE staff, and
education service officials. We reviewed the funding mechanism that CARE and the education
service used to fund activities in the 46 districts and reviewed CARE’s cost-sharing
contributions. We evaluated the mission’s management and oversight, CARE’s performance,
and the effectiveness of the activities through interviews, site visits, and data validation detailed
in the following paragraphs.

We conducted site visits in the Districts of Ga East, Ga South, Tolon-Kumbungu, Mfansteman,
and Savelugu Nanton. We talked to district officials in charge of implementing activities about
the project’s impact on their school districts. In addition, we conducted data validation at each
district’s education headquarters. We traced the results reported for each district to the



                                                                                                  13
                                                                                       Appendix I


supporting documents maintained at the headquarters. We also verified the funding that CARE
transferred to the districts through the education service by tracing the amounts they received to
the bank accounts set up for program implementation. The audit team visited schools and met
with head teachers to identify the changes made in schools to improve the student
achievements based on trainings received through the project. We also visited the classrooms
and interacted with the students.

The results related to this testing are limited to the items tested and cannot be projected to the
entire audit universe. However, we believe that our work provides a reasonable basis for our
conclusions.




                                                                                               14
                                                                                       Appendix II



MANAGEMENT COMMENTS 


	

MEMORANDUM
To:	            Abdoulaye Gueye, Regional Inspector General/Dakar
From:	          Cheryl Anderson Mission Director, USAID/Ghana
Date: 	         June 11, 2013
Subject:	       RIG Draft Audit No. 7-641-13-00XP: Audit of USAID/Ghana’s Partnership for
                Accountable Governance in Education Project

REF:	           RIG/Dakar Audit Report # 7-641-13-00X-P dated May 15, 2013.


This memorandum transmits USAID/Ghana’s management comments to the recommendations
contained in the subject Audit draft report. We take this opportunity to thank you for sharing the
draft and giving us the opportunity to offer clarifications and the Mission’s response. We also
wish to extend our sincere appreciation for the professionalism of your audit team during the
entire audit process including the field work. The exercise has provided USAID/Ghana with
essential lessons that will result in significant program improvements. We greatly appreciate this
opportunity to learn and share experiences to improve our PAGE project.


I.      General Comment
For the most part, the audit report provides a fair representation of the status of the project. The
report documents majority of issues of which USAID/Ghana’s Education Office was already
aware. This refers in particular to the delays in start-up and the cost share issue. However,
there are areas for which the findings could have had a more data-based analysis. This is
especially in terms of the seeking different perspectives regarding activities at the district level.
Also, to encourage good or better practice, the audit report could have benefitted from a more
balanced analysis, providing examples of what is being done well and what should be expanded
on in the project.



II.      Clarifications
In this section, the Mission provides clarifications to the general Audit Findings captured in the
report.
Project had implementation problems – Given the delays in the signing of the MOU with the
GES, mainly due to agreement on the type of district grant mechanism to be used with GES,
PAGE was unable to meet the targets for the trainings for teachers and PTAs. However, there
was good faith effort to get some work done (see Attachment I: Milestones Achieved Prior to



                                                                                                  15
                                                                                      Appendix II


District Grant Mechanism) in terms of laying the foundational and preparatory work with regards
to training of PTAs and Education administrators. Partnership with GES is one of the key
foundations and milestones of PAGE. Working through GES is one of the innovative
approaches to having lasting capacity development and retention within GES and to foster
greater impact in education. However, the local government system has its own challenges,
dynamics, complexities and bureaucracies that need studying, understanding and skillful
navigation. USAID/Ghana appreciates the willingness of CARE and GES to try to accelerate
some of the work after a long wait. An adjustment could have been to review and revise the
project timeline at that point to account for time lost and for ensuring an adequate pace and
progress of activities.


Activities were rushed - The process of identifying activities to be undertaken by each district
and when to implement these activities, involved the participation of the districts. Districts
initially developed their 15-month work plan with the participation of a 6–person team. This
team comprised the District Director of Education (DDE), Head of Supervision, Accountant,
Community Participation Coordinator (CPC), Budget Officer and M&E Officer from each district.
During the work plan development workshop, districts outlined all activities to be conducted
within the period per specific calendar quarters. The project did not prescribe the specific
months and dates for district activities. The project personnel rather reminded District personnel
to consider among other things, all other events (national/regional/school level events) that
could affect their scheduling.

The Mission acknowledges that the 15-month district sub‐grant work plans were not fully
reviewed given the delay. However, the strategy has been to discuss and plan each tranche’s
activities with each district, for optimal implementation. (See Attachment II: Report of Review
Meeting – District and Regional). With regards to the specific example of Tolon/Kumbungu and
Ga South districts having been rushed into implementing activities against their preference,
project records demonstrate funds were released to both districts on August 11, 2011, with
implementation in both districts starting in October, 2011, two clear months after the receipt of
funds. See Attachment III: Bank statement for Ga South and Tolon; Activity reports, showing
when activities were started.

Regarding the audit finding that the “project doesn’t allow flexibility for districts and denied
request for changes to program plan without any reason,” there are project records of official
communication from other districts to effect some changes to their work plans, with the
exception of official communication from Ga South district.

Additionally, USAID/Ghana made several monitoring visits, including some by the new
Education Office Director in October, 2011, when she visited Savegulu and Tolon districts. She
held discussions with PTA and SMC members, headteachers, and the Tolon District Education
Oversight Committee (DEOC). The DEOC meeting in particular shed light on the various issues
the district is dealing with regarding education, what the committee is doing and there was a
deep appreciation expressed by DEOC members, including the District Chief Executive, the
DEOC Chair, for the efforts and in particular the flexibility and relevance of the PAGE project in
that geographical region. This echoed the general sentiments communicated to USAID/Ghana
from GES at central level. The views that the district personnel in the Tolon District, as
documented in the audit report and during the auditor visit, were feeling pressed with no
flexibility from CARE was not expressed or that impression provided at the time of the Education
Office Director’s visit, nor afterwards in discussions and check-ins between USAID and GES.



                                                                                               16
                                                                                     Appendix II



Some data were not accurate, reliable or adequately supported – The finding listing
inconsistent data illustrates some issues with data, but does not provide a clear picture of the
degree to which the data issues were encountered. The finding also does not provide examples
of where the PAGE project did provide accurate, reliable, or adequately supported data. Were
the nine examples provided a minority or a majority of the issues? Were there 20, 40, 60
examples of good or more ideal data practice as compared to these nine examples of less than
ideal practice?

For some of the nine examples provided, there are specific clarifications.

See Attachment IV (multiple files):

   	 Bullet 2: SMC/PTA Training Ga East district took place in November 2011 and January
      2012. Attached, Participant List confirming 250 participants at SMC/PTA Training in Ga
      East

   	 Bullet 3: Participant list for SMC/PTA training in Svelugu/Nanton for June 2012 and not
      December 2011

   	 Bullet 7: Participant List for Town Hall meeting in Mfantseman, confirming 216
      participants

   	 Bullet 8: Participant list for Community Drama in Sevelugu/Nanton district. Activity took
      place in June 2012

   	 Bullet 9: The document was not clear in differentiating participants and resource persons
      (facilitators). A total of 127 headteachers attended the training in Mfantseman. The
      other nine were resource persons.

Supervision and monitoring tools were not implemented – The audit report (p. 8) cites the
example of one headteacher claiming the monitoring and supervision training could have been
more effective if the teachers had also been trained in the same rubrics. The PAGE project is
not mandated to carry out teacher training, only headteacher and levels above, which are in
charge of personnel supervision and monitoring. Including such training would have been cost
prohibitive for the project. A challenge to development work today in Ghana is a bit of a culture
of desire to attend trainings to supplement one’s income or to “motivate” action. This said, the
headteacher’s recommendation is misplaced and inappropriate. GES would not fund such a
training at such a large scale covering teachers (there are currently approximately 80,000 basic
school teachers) when the training is specifically intended to reinforce headteacher and circuit
supervisor personnel. This is why USAID, through the CARE PAGE project did not include
direct teacher training in the design. Additionally, the Government of Ghana is providing a
school level Capitation Grant to, among other things, enable headteachers to undertake such
simple school based trainings.




                                                                                              17
                                                                                       Appendix II


III.   DISCUSSION

RECOMMENDATION # 1
We recommend that USAID/Ghana require Cooperative for Assistance and Relief Everywhere
to revise the implementation work plan for the districts where project implementation is taking
place and ensure that activities are implemented in a logical and timely manner.

Management Decision: Sustained

Status: CARE is already reviewing (May 14‐June 11, 2013), in conjunction with district officials,
GES and District Assembly representatives, the sub‐grant implementation work plans for
districts in which project implementation is taking place to ensure that the activities planned are
along reasonable time frames, and to establish a schedule for check‐ins with the districts to
review progress against the scheduled plans.

Target Date: 

District work plan review – September30, 2013 


RECOMMENDATION # 2
We recommend that USAID/Ghana require Cooperative for Assistance and Relief Everywhere
to implement a process to ensure that feedback from district offices provided to its officials are
documented, acted upon and resolved in a timely manner.

Management Decision: Sustained

Status: The Mission will work with CARE to review its current project implementation
management tools, specifically looking for a tool that is being used to manage feedback from
the district offices. The Mission will work with CARE and GES to examine and determine
additional ways to capture and manage feedback from districts.

Target Date:
September 30, 2013

RECOMMENDATION # 3
We recommend that USAID/Ghana establish policies and procedures to include data verification
as part of performance monitoring site visits.

Management Decision: Sustained

Status: USAID already has in place data verification processes as part of performance
monitoring, but has plans in place to include stronger components of data and data quality
review in monitoring visits. The Mission will work with CARE to establish policies and
procedures to include data verification as part of performance monitoring site visits.

Target Date:
October 30, 2013




                                                                                                18
                                                                                  Appendix II


RECOMMENDATION # 4
We recommend that USAID/Ghana require Cooperative for Assistance and Relief Everywhere
to implement a plan to confirm that appropriate supervision and monitoring tools are
implemented in schools where head teachers received supervision and monitoring training and
document the results.

Management Decision: Sustained

Status: The Mission will work with CARE to identify how to boost current monitoring and
oversight processes, of both GES and the PAGE project in a way that helps build capacity and
address accountability issues through the life of the project. CARE will review its current
implementation plan of the monitoring and supervision tools to find areas in the plan where it
might be enhanced to ensure that monitoring and supervision tools are being implemented by
Circuit Supervisors.

Target Date:
September 30, 2013

RECOMMENDATION # 5
We recommend that USAID/Ghana disallow and recover from Cooperative for Assistance and
Relief Everywhere the amount of $384,085 claimed in cost‐sharing contributions.

Management Decision: Sustained

Status: The Mission will work with CARE to recover the amount of $384,085 claimed in cost-
sharing contributions.

Target Date:
October 31, 2013

RECOMMENDATION # 6
We recommend that USAID/Ghana review Cooperative for Assistance and Relief Everywhere’s
other cost share contributions and disallow any costs deemed inappropriate, and implement a
plan that requires the partner to reach the life‐of‐project cost‐sharing requirements by the
project end date.

Management Decision: Sustained

Status: USAID/Ghana will collaborate with CARE to review its other cost share contribution,
disallow any costs deemed inappropriate, and implement a plan that requires the partner to
reach the life-of-project cost-sharing requirements by the project end date.

Target Date:
September 30, 2013




                                                                                           19
                                                                                     Appendix II


RECOMMENDATION # 7
We recommend that USAID/Ghana revise its performance management plan for the Partnership
for Accountable Governance in Education project to include performance indicators that timely
measure intended project outcomes.

Management Decision: Sustained

Status: USAID/Ghana agrees with this recommendation. Since the inception of the PAGE
project in 2009/2010, a variety of contextual and operational changes have occurred. Ghana’s
Education Sector Plan was approved in 2010 (ESP 2010-2020), USAID’s Education Strategy
was released in 2011 and USAID/Ghana’s new Country Development Cooperation Strategy
(CDCS 2013-2017) has been developed and approved. The Mission is currently updating and
redesigning its PMP to conform to the new CDCS. A step in the process will be to review and
update existing project PMPs, including for the PAGE project. The Mission will revise its
performance management plan for PAGE to include performance indicators that timely measure
intended project outcomes.

Target Date:
October 31, 2013

RECOMMENDATION # 8
We recommend that USAID/Ghana review the performance monitoring tool for the Partnership
for Accountable Governance in Education project and ensure that all indicators are clearly
defined and it includes indicator reference sheets for all indicators.

Management Decision: Sustained

Status: USAID/Ghana will communicate pertinent data indicator requirements to CARE and
work with them to ensure the development of the necessary performance indicator reference
sheets (PIRS). The Mission will review the performance monitoring tool for the PAGE project
and ensure that all indicators are clearly defined and include indicator reference sheets for all
indicators. The Mission has already begun a process of reviewing and consolidating Mission-
wide PIRS under its new CDCS PMP and these will be used as a guide in working with CARE.

Target Date:
November 30, 2013




                                                                                              20
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
